No. _____________________

IN THE SUPREME COURT
OF THE UNITED STATES

UNITED STATES OF AMERICA,
Plaintiff-Respondent,
v.
JASON ANDREW DUNLAP,
Defendant-Petitioner.

MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS

The petitioner, Jason Andrew Dunlap, requests leave to file the attached
petition for writ of certiorari to the United States Court of Appeals for the Ninth
Circuit without prepayment of costs and to proceed in forma pauperis pursuant to
Rule 39.1 of this Court and 18 U.S.C. ยง 3006A(d)(7). The petitioner was represented
by counsel appointed under the Criminal Justice Act in the District of Oregon and

on appeal in the Ninth Circuit Court of Appeals, and therefore no affidavit is
required.
RESPECTFULLY SUBMITTED this 21st day of September 2020.
/s/ Thomas J. Hester
Thomas J. Hester
Assistant Federal Public Defender
Attorney for Petitioner

